                                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

    Case Number: A01120047
                                                                                   I          Page 1 of 2



                           In July 200 1, an NSF Program Officer' forwarded an allegation he received
                           from a complainant concerning potential improprieties, on the part of the
                           university, in managing an NSF instrumentation award2. The NSF PO
                           forwarded the allegation to our office for inquiry.

                            The complaint alleged the university was improperly managing the grant by
          canceling a purchase order for the equipment because the research requirements had changed.
          The complaint states that the research requirements had not changed and that, by canceling the
          order, the university was not acting in a financially prudent manner. The complaint further stated
          the proposed manager of the new instrumentation center should not have been removed from that
          position. Finally, the complaint stated that the PI was no longer in charge of the project and that
          the Vice Chancellor (VC) was selecting a new set of PIICo-PI'S to manage the project.

          We reviewed all pertinent internal documents and documents provided to us. We talked with the
          PO about the issues that were raised by the complainant. We agreed it appeared the crux of the
          complaint was program management oriented. We were concerned about the long lag time
          between award and final equipment purchase. We were also concerned the university was
          possibly changing PIS without notifying the agency. A review of the MRI Program
          announcement 99-34 did not reveal any special rules regarding the role of the PI or the
          institution's right to request a change of PI. Therefore, we determined the issues raised by the
          complaint were primarily program management issues. We decided to work with the PO and
          have the PO question the university about the status of the grant and the PIIco-PIS.

          We worked with the PO to draft a communication to university officials concerning the status of
          the award. The Vice Chancellor (VC) for Research responded with a detailed letter explaining
          that there had been some delay in finding the appropriate facility to locate the equipment (the    .
          original proposal indicated that a few options for locating the equipment were being considered).
          The VC also stated the original PI and co-PIS could not come to agreement on which equipment
          to purchase with the award. This stalemate resulted in a delaying of the equipment purchase.
          After extensive mediation, the VC decided it was in the best interest of the university to place a




<
                             Agent                  Attorney                Supervisor                 AIGI

      Sign / date
                                   NATIONAL SCIENCE FOUNDATION
                                    OFFICE OF INSPECTOR GENERAL
                                      OFFICE OF INVESTIGATIONS

                             CLOSEOUT MEMORANDUM

Case Number: A01 120047
                                                                           11        Page 2 of 2



                     new set of PIIco-PIS in charge of the award to "break the log jam" and attain
                     consensus on the issue of purchasable equipment. Both the PO and this office
                     believe the explanation provided by the VC is a reasonable explanation of the
                     circumstances involved in this case. The PO has subsequestly approved the
                     change of PI along with an understanding from the institution that the
                     equipment purchase will be completed before the end of this fiscal year.

           Accordingly, this case is closed and we will take no further action.
